                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

11   Case Number: A04040017
                                                                               11          Page 1 of 1



          This.case was initiated to provide a proactive look at NSF' use of the IPA' and VSEE~programs
          in three specific instances3to determine if there were any abuses by either NSF or the
          participants. The Official Personnel and IPA files of each individual were reviewed as well as
          current NSF policies regarding the programs. Additional information received from NSF's
          Designated Agency Ethics Officer (DAEO)~confirmed that the IPA was reviewed and approved
          prior to the assignment based on it being in the best interest of both NSF and the Government.

          The reviews found that NSF's actions with respect to the initial appointments and subsequent
          conversions of the individuals were within NSF and Federal policy.

          Accordingly, this case is closed.




 NSF 01G Form 2 (1 1/02)
